               Department of Veterans Affairs
               Office of Inspector General



                   Office of Healthcare Inspections
	

Report No. 13-00505-348



              Healthcare Inspection 


         Emergency Department 

            Patient Deaths 

        Memphis VA Medical Center 

          Memphis, Tennessee 





October 23, 2013

                       Washington, DC 20420 

To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                     Emergency Department Patient Deaths, Memphis VA Medical Center, Memphis, TN



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to an allegation of inadequate care for patients who died in the
Emergency Department (ED) at the Memphis VA Medical Center (the facility), Memphis,
TN. The complainant alleged that a patient died after a physician ordered a medication
for which the patient had a known drug allergy; another patient died after being
administered multiple sedating drugs and not being monitored properly; and a third
patient died after delays in getting treatment for very high blood pressure.

We substantiated that a patient was administered a medication in spite of a documented
drug allergy, and had a fatal reaction. Another patient was found unresponsive after
being administered multiple sedating medications. A third patient had a critically high
blood pressure that was not aggressively monitored and experienced bleeding in the
brain.

We found that the facility had completed protected peer reviews of the care for all three
patients. Two of the deaths were also evaluated through root cause analyses (RCAs),
quality reviews designed to identify and correct systemic factors and conditions that
may pose a threat to patient safety. However, we found that RCA action plan
implementation was delayed and incomplete.

We recommended that the Facility Director confer with Regional Counsel for possible
disclosure to the surviving family member(s) of Patient 3, and ensure that processes are
strengthened to monitor RCA action plans and ensure that they are completed. We
also recommended that processes be strengthened to improve patient monitoring in the
ED, and that unit specific competency assessments be completed for ED nursing staff.

Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,
pages 7–10 for the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                          JOHN D. DAIGH, JR., M.D.
                                                         Assistant Inspector General for
                                                           Healthcare Inspections




VA Office of Inspector General                                                                 i
                     Emergency Department Patient Deaths, Memphis VA Medical Center, Memphis, TN




                                         Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections reviewed
allegations regarding three patient deaths in the Emergency Department (ED) of the
Memphis VA Medical Center (the facility).

                                      Background 

The facility is part of Veterans Integrated Service Network (VISN) 9. It provides acute
medical and surgical care, as well as a full range of primary, specialty, and subspecialty
services, with a 22 bed ED and 244 operating inpatient beds.

An anonymous complainant alleged that:

   A patient died after a physician ordered a medication for which the patient had a
    known drug allergy.
   Another patient died after being administered multiple sedating drugs and not being
    monitored properly.
   A third patient died after delays in getting treatment for very high blood pressure.

We previously inspected the facility’s ED in 2012, after a confidential complainant
alleged that delays and conditions in the ED were putting patients at risk. Findings were
published in the report, Healthcare Inspection – Emergency Department Delays,
Memphis VA Medical Center, Memphis, TN, Report No. 11-04090-253, published in
August 2012. The facility is still in the process of taking follow-up actions.

                            Scope and Methodology 

We conducted a site visit May 29–31, 2013. We interviewed providers and other staff
involved in the care and treatment of ED patients, and other clinical and administrative
staff knowledgeable about the ED and internal processes, and toured the facility’s ED.

We reviewed VHA and local policies, committee minutes, Quality Management
documents, and other relevant documents, and the electronic health records (EHRs) of
three patients.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                1
                          Emergency Department Patient Deaths, Memphis VA Medical Center, Memphis, TN




                                         Inspection Results 

Case Summaries
Patient 1. The patient arrived at the facility ED complaining of back and neck pain. The
ED triage1 nurse documented in the EHR that the patient’s condition was non-urgent,
listed the patient’s allergies, including aspirin, and indicated that the allergies were
verified with the patient. A physician’s progress note entered approximately 3½ hours
later made no mention of allergies. The physician ordered ketorolac (a non-steroidal
anti-inflammatory pain medication) to be administered intramuscularly for the patient’s
back pain. This medication is contraindicated for patients with an allergy to aspirin. The
physician’s order for ketorolac was hand-written rather than being entered into the EHR
as required by local policy. Entering the order electronically would have generated an
alert that the medication was contraindicated due to the patient’s drug allergy. A few
minutes after the physician wrote the order, a staff member administered the ketorolac,
and the patient was discharged from the ED approximately 10 minutes after receiving
the medication. An hour later the patient returned to the ED by ambulance in full
cardiac and respiratory arrest. A different physician saw the patient and noted the drug
allergy. The patient had a breathing tube inserted, was placed on a ventilator, and was
transferred to the Medical Intensive Care Unit (MICU). The patient died 8 days later
after the family agreed to discontinue life support.

Patient 2. The patient arrived at the facility ED complaining of back pain described as
“10” on a scale of 0 (no pain) to 10 (unbearable pain). A physician saw the patient and
hand-wrote orders for hydromorphone (a narcotic pain medication) 2 mg to be
administered intravenously2 (IV), ondansetron (an anti-nausea medication) 4 mg IV,
lorazepam (a tranquilizer) 1 mg IV, and dexamethazone (a potent steroid medication
with anti-inflammatory properties) 4 mg IV). Both hydromorphone and lorazepam have
sedating properties.

The patient was in a “Level 2” ED bed, not in the main ED area. The patient rooms in
this area are not visible from the main ED and do not have bedside
electrocardiographic, oxygen saturation, or vital signs monitors connected to the central
monitoring system in the main ED. The patient was connected to a portable oxygen
saturation monitor that should alarm if there is a critical change in oxygen saturation
level; however, staff would have to be within hearing range of the monitor since it was
not connected to a centralized monitoring system. According to the EHR, the registered
nurse (RN) checked on the patient 45 minutes after administering the medications and
found him to be unresponsive and not breathing. ED staff began resuscitation efforts, a
breathing tube was inserted, and the patient was placed on a ventilator. He was
transferred to the MICU, where he remained in a coma until he died 13 days later. A

1
    Triage is the assessment of urgency to decide the order of treatment of injuries and illnesses.
2
    Medications administered intravenously have a faster onset of action, often with more intense effects.




VA Office of Inspector General                                                                               2
                       Emergency Department Patient Deaths, Memphis VA Medical Center, Memphis, TN


retrospective review by the facility revealed that the oxygen saturation monitor had
stopped recording data approximately 40 minutes before the patient was found
unresponsive.

Patient 3. The patient had a history of frequent hospitalizations and complex medical
issues, including hypertension, diabetes, congestive heart failure, and end stage renal
disease requiring dialysis. The patient arrived at the facility ED complaining of
shortness of breath and eye pain. He was noted to have an extremely elevated blood
pressure and an ED physician entered an order in the EHR for hydromorphone 1 mg IV
and hydralazine (a vasodilator3) 20 mg IV. Approximately one hour later, a nurse
documented that the patient was confused, but a subsequent note stated that he was
alert and oriented. EHR progress notes reflected that the RN notified the physician that
the patient’s blood pressure readings remained very high, but there is no notation that
the physician was alerted about the patient’s confusion. A second dose of hydralazine
was administered about two hours after the first dose, and the physician documented
about an hour after the second dose that the patient was “improving slowly.” Shortly
afterwards, another physician came on duty and documented that patient was awaiting
admission to an inpatient unit. About an hour later, the RN documented that the patient
again complained of eye pain. A few minutes after that, the patient was found
unresponsive. A CT scan4 detected bleeding in the patient’s brain. A breathing tube
was inserted and the patient was placed on a ventilator in the ED, transferred to the
MICU approximately 4 hours later, and died the following day.

Issue 1: Patient Deaths in the ED

We substantiated the allegation that three patients died subsequent to care they
received in the facility’s ED.

Hand written orders for Patient 1 did not comply with the facility’s requirement that all
provider orders and patient care be documented in the EHR. Since the orders were not
entered into the EHR, systems in place to prevent medication errors were bypassed.

When we interviewed staff, we did not get a clear response about what happened with
Patient 2’s oxygen saturation monitor. One staff member believed that the monitor
slipped off the patient’s finger and no one heard and/or responded to the alarm. We
were unable to establish whether or not the alarm sounded, but we were told that tests
done on the monitor after the event showed the alarm was functional. Since the patient
was physically located away from the main ED, it is possible that staff would not have
heard the alarm.

Patient 3 had preexisting hypertension and multiple comorbidities, but his deterioration
may have been prevented if appropriate antihypertensive medications had been given
more aggressively.
3
 A vasodilator is a medication that lowers blood pressure by relaxing blood vessel walls, causing them to dilate.
4
 A computed tomography (CT) scan is an imaging method that uses x-rays to create pictures of cross-sections of the
body.




VA Office of Inspector General                                                                                  3
                     Emergency Department Patient Deaths, Memphis VA Medical Center, Memphis, TN


Issue 2: Facility Response to Patient Deaths

We reviewed facility peer review and root cause analysis (RCA) processes to evaluate if
actions taken by the facility following the patient deaths were appropriate. We found
that the RCA process needed improvement.

Peer Reviews. Required by VHA, peer review is “an organized process carried out by
an individual health care professional or select committee of professionals, to evaluate
the performance of other professionals.”5 Typically, a peer review is completed when
there is an unexpected death of a patient. We found that peer reviews of medical and
nursing care were completed on all three patients in accordance with VHA guidelines.

Focused Professional Practice Evaluations. The two physicians involved in the care of
the three patients had Focused Professional Practice Evaluations (FPPEs) put in place
after the adverse events. FPPEs are a method of oversight of a physician’s practice,
and may be used when a question arises regarding a currently privileged provider’s ability
to provide safe, high-quality patient care. The ED Section Chief reviewed the patient
care provided by these physicians over a 6-month period, concluded that the
physicians’ performance was satisfactory, and reported the FPPE results to the facility’s
Professional Standards Board.

Institutional Disclosure. Institutional disclosure is when a facility informs a patient
and/or their families that a serious adverse event has occurred, and advises them of
their rights, including the right to file a tort claim.6 We found that the facility completed
institutional disclosure for Patients 1 and 2, and adhered to VHA requirements. An
institutional disclosure was not completed for Patient 3.

RCA. RCA is another type of review required by VHA after certain adverse events.7
An interdisciplinary team, comprised of those knowledgeable about the processes
involved, completes an event analysis that focuses more on systems and processes
than individual performance. All aspects of the process are to be reviewed and all
contributing factors considered. An RCA should identify changes that could be made in
systems and processes to improve performance and reduce the risk of the adverse
event recurrence. VHA’s National Center for Patient Safety8 provides guidance to
facility patient safety managers (PSMs), who oversee the RCA process and are
responsible for documenting all of the RCA milestones, including actions taken and
outcomes.

We interviewed staff about the RCA process for Patient 1 and Patient 2. We were told
that monitoring of action plan implementation did not occur. Although both RCAs listed

5
  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
6
  VHA Handbook 1004.08, Disclosure of Adverse Events to Patients, October 2, 2012.
7
  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
8
  http://vaww.ncps.med.va.gov/




VA Office of Inspector General                                                                4
                     Emergency Department Patient Deaths, Memphis VA Medical Center, Memphis, TN


specific monitoring criteria to be met in order to complete the RCA process, the
monitoring was not done before the RCAs were completed and closed. When asked
how compliance with the action plan was determined, we were told that the PSM “just
asks someone if they did it,” not retaining or requiring any documentation.

Additionally, the RCA documentation we reviewed contained several errors of fact, such
as how long Patient 1 was monitored in the ED before discharge and the number of
intravenous medications given to Patient 2.

Issue 3: Other ED Issues

Nursing staff competency validation. We found that ED nursing staff did not have
competencies validated for any ED-specific skills. This was confirmed by a review of
the competency assessment and validation documentation of four members of the
nursing staff who had been involved in the care of Patients 1, 2 and 3.

ED physical layout. We found that the physical layout of the ED does not allow for
adequate monitoring of all patients. Since there is no central monitoring system for
some rooms, alarms from monitoring equipment in these rooms might not be heard.
This issue had been identified as a risk for patients during our 2012 inspection.

                                     Conclusions 

We substantiated that a patient was administered a medication in spite of a documented
drug allergy, and had a fatal reaction. Another patient was found unresponsive after
being administered multiple sedating medications. A third patient had a critically high
blood pressure that was not managed aggressively, and experienced bleeding in the
brain approximately 5 hours after presenting to the ED.

We found that the facility took actions as required by VHA in response to the
unexpected patient deaths, but noted that implementation of action plans developed
through RCAs was delayed and incomplete.

We found inadequate monitoring capabilities for patients in some ED rooms, an issue
identified during our site visit last year.

We also found that nursing ED-specific competency assessments had not been
completed.

                                 Recommendations 


Recommendation 1. We recommended that Facility Director confer with Regional
Counsel for possible disclosure to the surviving family member(s) of Patient 3.

Recommendation 2. We recommended that the Facility Director ensure that root
cause analysis action plans are documented, monitored, and completed promptly.


VA Office of Inspector General                                                                5
                     Emergency Department Patient Deaths, Memphis VA Medical Center, Memphis, TN


Recommendation 3. We recommended that the Facility Director ensure that patients
are appropriately monitored in all emergency department rooms.

Recommendation 4. We recommended that the Facility Director ensure that unit-
specific competency assessments are completed for emergency department nursing
staff.




VA Office of Inspector General                                                                6
                     Emergency Department Patient Deaths, Memphis VA Medical Center, Memphis, TN
                                                                                    Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


     Date:     September 19, 2013

     From: Director, VA Mid South Healthcare Network (10N9)

 Subject:      Healthcare Inspection – Emergency Department Patient Deaths,
               Memphis VA Medical Center, Memphis, TN

        To:    Director, Bay Pines Office of Healthcare Inspections (54SP)
               Director, Management Review Service (VHA 10AR MRS OIG
               Hotline)


               1. Please see the attached response to the Healthcare
               Inspection, Emergency Department Patient Deaths, Memphis
               VA Medical Center, Memphis, TN (2013-00505-HI-0387)
               conducted May 29-31, 2013.

               2 I concur with the responses.

               3. If you have any questions, contact Cynthia Johnson, VISN 9
               Quality Management Officer. Ms. Johnson can be reached at
               (615) 695-2143.




                 (original signed by:)
                  JOHN E. PATRICK
                  Network Director




VA Office of Inspector General                                                                7
                     Emergency Department Patient Deaths, Memphis VA Medical Center, Memphis, TN
                                                                                    Appendix B
                         Facility Director Comments


               Department of
               Veterans Affairs                                  Memorandum


       Date: September 17, 2013

      From: Director, Memphis VA Medical Center (614/00)

   Subject: Healthcare Inspection – Emergency Department Patient
            Deaths, Memphis VA Medical Center, Memphis, TN

         To: Director, VA Mid South Healthcare Network (10N9)



               1. Attached please find the VA Medical Center at Memphis’
               response to the Healthcare Inspection – Emergency
               Department Deaths, Memphis VA Medical Center, Memphis,
               TN (2013-00505-HI-0387) conducted May 29-31, 2013. I
               concur with the responses.

               2. If you have any questions regarding the information
               provided, please contact Jan Slate, Accreditation Manager,
               Quality Management and Performance Improvement. Mrs.
               Slate can be reached at (901) 577-7379, menu choice #5.




               (original signed by:)
               C. DIANE KNIGHT, MD 

               Medical Center Director 





VA Office of Inspector General                                                                8
                     Emergency Department Patient Deaths, Memphis VA Medical Center, Memphis, TN



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that F acility Director confer with Regional
Counsel for possible disclosure to the surviving family member(s) of Patient 3.

Concur with the recommendation.

Target date for completion: September 19, 2013

Facility response: On September 9, 2013, the Chief of Staff and the Risk Manager
consulted Regional Council regarding the case. After review of the case it was agreed
by all parties to conduct institutional disclosure with the family. The Chief of Staff, the
Deputy Chief of Staff, and the Risk Manager will conduct institutional disclosure with the
patient’s family on Thursday, September 19, 2013.

Recommendation 2. We reco mmended that th e Facility Director ensure that ro ot
cause an alysis act ion plans are documented, monitored, and completed
promptly.

Concur with the recommendation.

Target date for completion: Completed.

Facility response: To ensure completion of all Root Cause Analysis (RCA) actions
and outcome measures, an RCA Action Tracker was established in June, 2013. This
Tracker includes all RCAs initiated during FY13. The RCA Tracker was approved by
the Quality Executive Board (QEB), which is chaired by the Medical Center Director, on
June 21, 2013. Updates from the RCA Tracker will be reported quarterly to QEB to
identify incomplete and/or non-compliant items. Each RCA is presented to Executive
Leadership within the 45-day expectancy by the RCA Team. At the conclusion of each
presentation, the RCA Team is instructed on items which require outcome
measurements, monitoring, analysis, and conclusions. Assignments for monitoring as
determined by Executive Leadership are recorded on the RCA Tracker.

Recommendation 3. We recommended that           the Facility Director ensure that
patients are appropriately monitored in all emergency department rooms.

Concur with the recommendation.

Target date for completion: October 31, 2013

Facility response: All patients in Level 1 ED (the main ED area) are placed on Cardiac
Monitors. The Centralized Monitor Technicians watch the ED monitors remotely while


VA Office of Inspector General                                                                9
                     Emergency Department Patient Deaths, Memphis VA Medical Center, Memphis, TN


the ED nurses can watch them on a small centralized screen. A 40” display screen has
been installed under the EDIS board in Level 1 to facilitate monitor viewing. To ensure
the monitor alarms stay on high volume, the monitors are checked each shift by the
Nurse Manager and/or the charge nurse. The ED Chief Nurse will conduct random
checks every week on alarm volume. Four additional 40” display screens have been
ordered that will be placed in each corner in Level 1 ED so they are visible from
anywhere in the main ED area.

The patient monitoring equipment for Level 2 is on station and is in process of being
installed with an estimated completion date of late October. At that time the Level
2 cardiac monitored beds will also be watched remotely by the Centralized Monitor
Technicians. When the patient monitoring equipment is installed, then all patients in the
ED, Level 1 and Level 2, will be cardiac monitored. As in Level 1, a 40” display screen
will also be installed under the EDIS board in Level 2. Currently, Level 2 provides care
for less critical patients. If the Level 1 monitored beds are at capacity and another
patient requires monitoring, the patient is placed on a bed transport monitor, and an RN
is assigned to sit one-to-one with that patient until a bed becomes available in Level 1.

Recommendation 4. We recommended that the F acility Director ensure that unit -
specific competency assessments are completed for ED nursing staff.

Concur with the recommendation.

Target date for completion: November 30, 2013

Facility response: A new educator has been assigned to the ED. The ED Nurse
Educator, the ED Nurse Manager, and Quality Management staff have been working
together to develop and identify ED specific competencies. It is expected that full
competency verification will be completed by October 31, 2013, on existing staff and
newly hired employees.

The Educator is currently obtaining educational materials for stroke, myocardial
infarction, pneumonia, and sepsis. The Chief Nurse, Ambulatory Care, is working with
AFGE, the local professional Union, concerning the requirement for Trauma Nursing
Core Course (TNCC) certification for emergency department nurses.

The Emergency Severity Index (ESI) process review certificates for FY14 have been
received. It is planned to complete this competency for FY14 by November 30, 2013.

Standard Operating Procedures (SOPs) have been developed regarding the care of
patients who present with specific symptoms and complaints. These SOPs are being
reviewed by the Nurse Practice Council for final approval before being put into practice.
The next Nurse Practice Council meeting is October 3, 2013, and a decision should be
made at that time.




VA Office of Inspector General                                                               10
                     Emergency Department Patient Deaths, Memphis VA Medical Center, Memphis, TN
                                                                                    Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Karen McGoff-Yost, MSW, LCSW, Team Leader
                         Carol Torczon, MSN, ACNP
                         Jerome Herbers, MD
                         Jackelinne Melendez, MPA




VA Office of Inspector General                                                               11
                     Emergency Department Patient Deaths, Memphis VA Medical Center, Memphis, TN
                                                                                    Appendix D 


                                  Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Mid South Healthcare Network (10N9)
Director, Memphis VA Medical Center (614/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Lamar Alexander, Bob Corker
U.S. House of Representatives: Steve Cohen



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                               12
